           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


THE SOCIAL SECURITY ADMINISTRATION’S
   COMPLIANCE WITH PRESIDENTIAL
        EXECUTIVE ORDER 13224
   PROHIBITING TRANSACTIONS WITH
 PERSONS WHO COMMIT, THREATEN TO
   COMMIT, OR SUPPORT TERRORISM

    September 2005   A-08-05-15093




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                             F




                                          SOCIAL SECURITY
MEMORANDUM

Date:   September 9, 2005                                                                              Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Compliance with Presidential Executive
        Order 13224 Prohibiting Transactions with Persons Who Commit, Threaten to Commit,
        or Support Terrorism (A-08-05-15093)


        OBJECTIVE

        Our objective was to determine what actions the Social Security Administration (SSA)
        had taken to ensure it was not making payments to individuals or organizations on the
        Department of the Treasury’s (Treasury) list of persons who commit, threaten to
        commit, or support terrorism.

        BACKGROUND
        In September 2001, President Bush signed Executive Order 13224 (EO 13224),
        Blocking Property and Prohibiting Transactions With Persons Who Commit, Threaten to
        Commit, or Support Terrorism, giving the Government a means to impede terrorist
        funding. On December 18, 2002, Treasury issued Financial Manual, Bulletin
        No. 2003-04, notifying Federal agencies of the implementation of EO 13224. The
        Bulletin states Federal agencies must not make payments or draw checks or warrants
        payable to an individual or organization listed on the Office of Foreign Assets Control’s
        (OFAC)1 website of persons who commit, threaten to commit, or support terrorism.




        1
          OFAC, within Treasury, administers and enforces economic and trade sanctions based on U.S. foreign
        policy and national security goals against targeted foreign countries, terrorists, international narcotics
        traffickers, and those engaged in activities related to the proliferation of weapons of mass destruction.
Page 2 – The Commissioner


To accomplish our objective, we interviewed officials from SSA’s Office of the Chief
Information Officer and obtained OFAC’s list of Specially Designated Nationals (SDN)
as of June 2004.2 From this list, we identified a population of 1,376 individuals and
1,102 companies. We divided the individuals into 2 groups: 894 individuals for whom a
partial or complete date of birth was available and 482 individuals for whom a partial or
complete date of birth was not available. We randomly selected 50 individuals (25 from
each group) and 25 companies to explore the complexities of matching OFAC data with
SSA payment records. In addition, we attempted to determine whether SSA had made
payments to these individuals and companies. We also contacted several public and
private organizations to obtain information on their experiences matching payment
records with OFAC’s file. See Appendix B for additional information on our audit scope
and methodology.

RESULTS OF REVIEW
Despite EO 13224, SSA had not taken all of the necessary steps to ensure it was not
making payments to individuals or organizations who committed, threatened to commit,
or supported terrorism. Officials from SSA’s Office of the Chief Information Officer told
us the Agency had not matched payment records for its Title II and XVI programs3 or its
Third Party Payment System (TPPS)4 with OFAC’s file. These officials expressed
concerns about the complexities of performing such a match and told us that (1)
identifying information in OFAC’s file is not always complete or formatted to facilitate
retrieval and processing and (2) SSA’s voluminous records complicate matching.
However, to its credit, SSA uses the Excluded Parties Listing System (EPLS), a
database that incorporates OFAC information, to screen potential contractors and
grantees.5




2
  OFAC publishes a list of individuals and companies owned or controlled by, or acting for or on behalf of,
targeted countries. It also lists individuals, groups, and entities, such as terrorists and narcotics traffickers
designated under programs that are not country-specific. Collectively, such individuals and companies
are called SDNs. Their assets are blocked, and U.S. persons are generally prohibited from dealing with
them.
3
  SSA makes monthly payments to about 47 million individuals under the Old-Age, Survivors and
Disability Insurance program (Title II) and about 7 million individuals under the Supplemental Security
Income program (Title XVI).
4
  SSA uses TPPS to pay vendors for goods and services, reimburse employees, and provide emergency
funds to beneficiaries.
5
  EPLS identifies those parties excluded from receiving Federal contracts or certain subcontracts and
from certain types of Federal financial and nonfinancial assistance and benefits.
Page 3 – The Commissioner


Match of OFAC Records with SSA Records

To explore the complexities of matching OFAC data with SSA payment records, we
reviewed 50 individuals and 25 companies from OFAC’s file. For individuals having
partial or complete dates of birth, we identified two potential name matches based on a
search of SSA’s Alphident database.6 Upon further review, we determined that none of
these individuals matched current Title II or Title XVI recipients. For OFAC records
without partial or complete dates of birth, we identified numerous name matches, but we
did not perform additional reviews because of the high volume of names. For example,
we identified over 500 potential name matches for 1 individual. We believe SSA should
contact Treasury to clarify the Agency’s responsibility for matching against OFAC
records without partial or complete dates of birth. We did not identify any instances in
which SSA made payments to the 25 companies we reviewed.

Although our review of the 50 individuals and 25 companies did not identify any
instances in which SSA made payments to these individuals or organizations, we
believe SSA should develop a process to match its payment records with OFAC’s file.
We recognize the complexity of such matching; however, given the importance of
preventing payments to known terrorists and terrorist organizations, such a challenge
should not discourage SSA from taking steps to match all of its payment records with
OFAC’s file.

Some Individuals in OFAC’s File Had Earnings

We searched OFAC’s file and identified seven individuals with a Social Security number
(SSN). We determined that SSA had not made payments to these individuals.
However, five of these individuals had worked in the United States. In fact, one
individual had been employed by a college in a large northern city as recently as
2003. The college terminated his employment following a news report linking him to
terrorist groups. To prevent these individuals from receiving SSA payments or benefits,
we believe the Agency should flag the earnings and/or Numident7 records of such
individuals. In addition, we believe SSA should explore sharing earnings information on
known terrorists with the Department of Homeland Security (DHS). Earnings
information on known terrorists could potentially assist DHS in its mission.




6
 The Alphident database contains records that allow SSA to search the Agency’s master file of all
assigned SSNs based on name and date of birth information.
7
  The Numident database contains records of SSN cards issued over an individual’s lifetime, as well as
identifying information such as age, place of birth, and parents’ names.
Page 4 – The Commissioner


Other Large Organizations Match Their Records with OFAC’s File

While we recognize the challenge for SSA to match payment records with OFAC’s file,
other large public and private organizations have done so. For example, the General
Services Administration, Treasury, DHS, and the Departments of Justice and State use
OFAC’s file in their operations. Although we did not attempt to identify all Federal
agencies that match payment records with OFAC’s file, use by the agencies cited above
evidences the possibility and importance of such matches.

In addition, thousands of private organizations, such as insurance and mortgage
companies, banks, and security firms match their records with OFAC’s file. One large
insurance company matches over 5 million payment records (health care members and
providers, vendors, and employees) monthly with OFAC’s file. The company purchased
specialized software that helps the accuracy of matching names, addresses, and other
personal identifying information. Another large insurance company performs a similar
match on over 16 million payment records monthly. This company developed its own
matching software because its information systems were unique.

CONCLUSIONS AND RECOMMENDATIONS
If SSA does not take steps to comply with EO 13224, the Agency remains at-risk of
making payments to individuals or organizations in OFAC’s file of persons who commit,
threaten to commit, or support terrorism.

Accordingly, we recommend that SSA:

1. Coordinate with OFAC to ensure compliance with EO 13224. We encourage the
   Agency to explore all potential options, available under current law and regulations
   and consistent with the Social Security Act and other statutes, to prohibit payments
   to terrorists and terrorist organizations and, if necessary and appropriate, seek new
   legislative authority to prohibit such payments.

2. Discuss with OFAC officials, SSA’s difficulty in, and responsibility for, matching
   against OFAC records without partial or complete dates of birth and, if necessary,
   request clarifying guidelines.

3. For individuals in OFAC’s file, flag SSA records to alert field office personnel that
   these individuals are not eligible for payments or benefits.

4. Explore sharing earnings information on individuals in OFAC’s file with DHS.
Page 5 – The Commissioner


AGENCY COMMENTS AND OIG RESPONSE
While SSA agreed in principle with Recommendations 1, 2, and 3, it stated it believes
the Agency is in full compliance with EO 13224 because it is taking all appropriate
measures in its authority to carry out the provisions of this Order by precluding the
payment of benefits to terrorists in certain situations authorized under the Social
Security Act. SSA stated it generally verifies the immigration status of all noncitizen
applicants for benefits with DHS. In addition, the Agency stated the Social Security Act
generally precludes benefit payment to prisoners, fugitive felons, illegal aliens and
aliens outside of the United States. Furthermore, SSA stated that neither EO 13224 nor
the Social Security Act gives the Agency authority to withhold or stop the payment of
Title II or XVI benefits simply because a person is identified on the OFAC list as a
terrorist.

We are pleased that SSA fully supports EO 13224 and is committed to supporting
initiatives to enhance homeland security. However, we believe the Agency’s responses
do not fully address our concerns regarding SSA’s compliance with EO 13224.

We believe SSA’s responses to Recommendations 1, 2, and 3 do not effectively
address our concern that the Agency has not taken all of the necessary steps to ensure
it is not making payments to terrorists or terrorist organizations. We acknowledge the
steps SSA has taken to verify the immigration status of noncitizens and preclude
payments to those who have violated criminal and immigration law. However, SSA has
no assurance that these steps detect terrorists and terrorist organizations in OFAC’s
file. As discussed in this report, SSA has not matched payment records for its
Title II and XVI programs or its Third Party Payment System with OFAC’s file to ensure
compliance with EO 13224.

We acknowledge SSA’s desire to comply with the Social Security Act. However, such a
position should not detract from SSA’s obligation to prevent payments to terrorists and
terrorist organizations. Given homeland security implications, we continue to believe
SSA should coordinate with OFAC to ensure SSA is complying to the fullest extent
possible with EO 13224 and, if necessary and appropriate, seek new legislative
authority to prohibit payments to terrorists and terrorist organizations. Accordingly, we
ask the Agency to reconsider its response to these recommendations.
Page 6 – The Commissioner


In response to Recommendation 4, SSA stated it may not have sufficient authority
under existing laws to share earnings information on individuals in OFAC’s file with
DHS. Instead, it deferred to the Internal Revenue Service on this issue. In addition,
SSA indicated that, even if it determined it had sufficient authority to make such
disclosures, it would have to perform further analysis to determine whether the
Executive Order provides enough authority to share the information under the Privacy
Act. We did not intend to suggest that SSA should act contrary to current law and
regulations. Rather, our intent was to urge the Agency to be proactive and explore all
potential disclosure options under current law and regulations before seeking new
legislative authority. We believe that seeking legislative authority, if necessary, to
remove barriers that would allow the Agency to share earnings information with DHS is
important for homeland security. Accordingly, we ask that SSA reconsider its response
to this recommendation.

The full text of SSA’s comments is included in Appendix C.




                                        S
                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
DHS        Department of Homeland Security
Treasury   Department of the Treasury
EO 13224   Executive Order 13224
EPLS       Excluded Parties Listing System
OFAC       Office of Foreign Assets Control
SSA        Social Security Administration
SSN        Social Security Number
SDN        Specially Designated Nationals
TPPS       Third Party Payment System
                                                                        Appendix B

Scope and Methodology
To achieve our objective, we obtained the Office of Foreign Assets Control’s (OFAC) list
of Specially Designated Nationals from the OFAC website as of June 2004. From this
list, we identified a population of 1,376 individuals and 1,102 companies.

Review of Individuals

We divided the population of individuals into 2 groups: 894 individuals for whom a
partial or complete date of birth was available, and 482 individuals for whom a partial or
complete date of birth was not available. We randomly selected 25 individuals from
each group. For each of these 50 individuals, we performed the following steps.

•   We searched the Social Security Administration’s (SSA) Alphident database using
    the following personal identifying information from OFAC’s file: primary name and
    alternate names, partial or complete date of birth, and place of birth.

•   For name matches from the Alphident search, we queried SSA master files for
    Title II and Title XVI payments.

•   Performed additional analysis of identifying information to determine the likelihood of
    a true match.

In addition, we searched OFAC’s file and identified seven individuals with a Social
Security number. For these individuals, we also queried SSA master files to determine
whether they were receiving Title II and/or Title XVI payments. We also reviewed SSA’s
earnings histories for these individuals to determine whether they had worked in the
United States.




                                            B-1
Review of Companies

We randomly selected 25 companies from OFAC’s file. For each of these companies,
we performed the following steps.

•   We searched the Central Contractor Registration database.1

•   We searched SSA’s Master Representative Payee File.2

•   At our request, SSA’s Office of Financial Policy and Operations searched the
    Agency’s Third Party Payment System and Accounts Payable Vendor Files.

Our primary SSA contact for this review was the Office of the Chief Information Officer.
We relied on SSA’s master program files, Third Party Payment System, and the
Representative Payee Monitoring System to complete our review, as well as the Central
Contractor Registration System. We determined the data obtained from these systems
were sufficiently reliable given the audit objective and use of the data. We conducted
our work from September 2004 through March 2005 in accordance with generally
accepted auditing standards.




1
 The Central Contractor Registration is the primary vendor database for the Government. Current and
potential Government vendors must be registered in this database to qualify for contracts awarded by the
Government.
2
  The Master Representative Payee File stores information about organizations and individuals that
receive payments on a beneficiary’s behalf because they need help managing their funds. There are
about 42,000 organizational representative payees.




                                                  B-2
                  Appendix C

Agency Comments
                                       SOCIAL SECURITY


MEMORANDUM                                                                34258-24-1316


Date:      August 26, 2005                                                Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye          /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security
           Administration’s Compliance with Presidential Executive Order 13224 Prohibiting
           Transactions with Persons Who Commit, Threaten to Commit, or Support Terrorism"
           (A-08-05-15093)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension
           54636.

           Attachment:
           SSA Comments




                                                    C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"THE SOCIAL SECURITY ADMINISTRATION’S COMPLIANCE WITH
PRESIDENTIAL EXECUTIVE ORDER 13224 PROHIBITING TRANSACTIONS WITH
PERSONS WHO COMMIT, THREATEN TO COMMIT, OR SUPPORT TERRORISM"
(A-08-05-15093)


Thank you for the opportunity to review and comment on the draft report. The Social Security
Administration (SSA) remains committed to providing support for initiatives to enhance
Homeland Security. We are pleased that OIG recognizes our efforts to use the Excluded Parties
Listing System, a database that incorporates Office of Foreign Assets Control (OFAC)
information to screen potential contractors and grantees. Of course, we generally verify the
immigration status of all non-citizen applicants for benefits with the Department of Homeland
Security (DHS). In addition, the Social Security Act (Act) precludes payment of benefits to
prisoners, fugitive felons, illegal aliens and aliens outside of the United States. Thus, convicted
terrorists cannot receive Social Security benefits while incarcerated or fugitives.

Our comments on the specific recommendations are provided below.

Recommendation 1

Coordinate with OFAC to ensure compliance with Presidential Executive Order 13244. We
encourage the Agency to explore all potential options, available under current law and
regulations and consistent with the Social Security Act and other statutes, to prohibit payments to
terrorists and terrorist organizations and, if necessary and appropriate, seek new legislative
authority to prohibit such payments.

Comment

We agree. The Agency fully supports Presidential Executive Order (EO) 13224 to block
property and prohibit transactions to persons who commit, threaten to commit, or support
terrorism.

Although neither the EO nor the Act give the Agency per se authority to withhold or stop the
payment of monthly Title II or XVI benefits simply because a person is identified on the OFAC
list as a terrorist, there are specific situations where non-payment to otherwise eligible persons
would be appropriate. Payment of Social Security benefits to such persons would not be made
because of a number of provisions in the Act that generally preclude payment to those who have
violated criminal and immigration law.

For example, all Social Security beneficiaries and Supplemental Security Income recipients who
have been incarcerated for criminal offenses, including terrorists, lose their benefits while they
are confined in a penal institution. The same is true for beneficiaries who are fleeing from law
enforcement authorities because of an outstanding felony warrant for their arrest. The authority
for the suspension of benefits in these cases, including parole violators, rests in section 202(x) of
the Act. Similarly, section 202(n) of the Act requires the suspension of benefits payable to


                                               C-2
Social Security beneficiaries who are non-citizens and who are deported by DHS. In addition,
section 202(t) of the Act generally precludes payment of benefits to non-citizens who remain
outside the United States for more than six months. Finally, section 202(y) of the Act precludes
the payment of benefits to any otherwise eligible non-citizen who is not lawfully present in the
United States.

We believe that because the Agency precludes the payment of benefits to terrorists in certain
situations authorized under the Act, the Agency is in full compliance with the EO which “direct[s
agencies] to take all appropriate measures within their authority to carry out the provisions of
this order.” (Emphasis added.) Finally, the Agency has evaluated, and continues to evaluate, the
potential utility of the OFAC as a means of strengthening the administration of the Act relative to
the above provisions.

Recommendation 2

Discuss with OFAC officials, SSA’s difficulty in, and responsibility for, matching against OFAC
records without partial or complete dates of birth and, if necessary, request clarifying guidelines.

Comment

See comments on Recommendation 1; we have no additional comments.

Recommendation 3

For individuals in OFAC’s file, flag SSA earnings and/or Numident records to alert field office
personnel that these individuals are not eligible for payments or benefits.

Comment

See comments on Recommendation 1; we have no additional comments.

Recommendation 4

Explore sharing earnings information on individuals in OFAC’s file with the DHS.

Comment

Earnings information, such as amounts of earnings and employer name and location, is collected
by SSA as part of the combined annual wage reporting process and may be disclosed only as
permitted by the Internal Revenue Code (IRC). See 26 U.S.C. § 6103 (defining return
information), 42 U.S.C. § 432 (explaining combined annual wage reporting). Because the
earnings information referenced by OIG is tax return information under the IRC, SSA would be
limited by the provisions of 26 U.S.C. § 6103 in making disclosures. Section 6103 does not
contain a provision permitting disclosure pursuant to an EO. However, we defer to the Internal
Revenue Service as this issue is within its jurisdiction.




                                               C-3
Even if SSA were able to determine that it had sufficient authority to make such disclosures
consistent with the IRC, we would need to perform further analysis to determine if the EO
provides enough authority to share the information under the Privacy Act (5 U.S.C. § 552a). In
general, disclosures without consent under the Privacy Act are limited to those that are
compatible with the reasons the Agency collected the records. As noted in our comments on
Recommendation 1, the EO does not provide the Agency the proper authority to stop benefit
payments. This may also limit our ability to share earnings information collected for that
purpose.




                                             C-4
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605
   Jeff Pounds, Audit Manager, (205) 801-1606


Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor
   Lauren Butts, Auditor
   Brennan Kraje, Statistician
   Kim Beauchamp, Writer-Editor



For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to the Common Identification Number A-08-05-15093.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
